HHS/OIG, Audit -"Review of Overpayment Collections for the Aid to Families with Dependent Children Program by San Diego County,"(A-09-02-00094)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Overpayment Collections for the Aid to Families with
Dependent Children Program by San Diego County," (A-09-02-00094)
February 17, 2004
Complete
Text of Report is available in PDF format (407 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Federal regulations require that States pursue Aid to Families with Dependent Children overpayments
made prior to October 1, 1996, and make appropriate refunds to the Federal Government.  This final report points out
that California had not made such refunds for overpayments collected by San Diego County (estimated at approximately $5.3
million Federal share).  We recommended a financial adjustment for the $5.3 million and procedural corrections.  The
State generally concurred with our recommendations.